No.

IN THE
SUPREME COURT OF THE UNITED STATES
LUZ HERNANDEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Jacqueline E. Shapiro
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-403-8207
shapiro.miamilaw@gmail.com
Counsel for Petitioner

QUESTION PRESENTED
The district court issued an order of restitution in the amount of over $4.7
million pursuant to the government’s ex parte motion filed after petitioner’s attorney
had withdrawn from the case and in the absence of actual notice to or consent by
petitioner. In the motion, the government claimed that the former attorney had agreed
to the restitution judgment and thus that no restitution hearing was required.
Does the imposition of financial penalties as part of a felony sentencing violate
a defendant’s Fifth Amendment right to due process and Sixth Amendment right to
counsel where the defendant lacks notice of, and the assistance of counsel regarding,
the government’s ex parte request for such penalties?

i

INTERESTED PARTIES
The caption contains the names of all of the parties interested in the
proceedings.

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, United
States v. Luz Hernandez, Nos. 19-12702, 19-12907, 831 Fed.Appx.
932 (Oct. 23, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Decision of the Court of Appeals for the Eleventh Circuit denying
petition for panel rehearing, United States v. Luz Hernandez, Nos.
19-12702, 19-12907 (Jan. 11, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . App. 10
Judgment of Conviction, United States District Court, S.D. Fla.,
United States v. Luz Hernandez, No. 18-20698-Cr-ALTONAGA (July
12, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 11

iii

District court counsel’s motion to withdraw, United States v. Luz
Hernandez, No. 18-20698-Cr-ALTONAGA (July 12, 2019) . . . . . . App. 17
United States v. Luz Hernandez, No. 18-20698-Cr-ALTONAGA (July
12, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 19
United States v. Luz Hernandez, No. 18-20698-Cr-ALTONAGA (July
12, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 20

iv

TABLE OF AUTHORITIES
CASES:
Blaik v. United States, 161 F.3d 1341 (11th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 12
Gardner v. Florida, 430 U.S. 349 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Holloway v. Arkansas, 435 U.S. 475 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Jones v. Governor of Florida, 975 F.3d 1016 (11th Cir. 2020) (en banc) . . . . . . . 7
Montejo v. Louisiana, 556 U.S. 778 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Paroline v. United States, 572 U.S. 434 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Pasquantino v. United States, 544 U.S. 349 (2005) . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Cronic, 466 U.S. 648 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Gonzalez-Lopez, 548 U.S. 140 (1996) . . . . . . . . . . . . . . . . . . . . 15
United States v. James Daniel Good Real Property, 510 U.S. 43 (1993) . . . . . . 8, 9
United States v. Pleitez, 876 F.3d 150 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . 13, 14
STATUTORY AND OTHER AUTHORITY:
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 1, 6, 7, 8
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 2, 6, 7, 10, 13, 15
18 U.S.C. § 3572(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
18 U.S.C. § 3664(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 14
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

v

PETITION FOR WRIT OF CERTIORARI
Luz Hernandez respectfully petitions the Supreme Court of the United States
for a writ of certiorari to review the decision of the United States Court of Appeals for
the Eleventh Circuit, entered in case numbers 19-12702, 19-12907 on October 23,
2020.
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit, unpublished and available at 831 Fed.Appx. 932, is contained in the Appendix
(App. 1) as is a copy of the denial of petitioner’s request for rehearing. App. 10.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and Part III
of the Rules of the Supreme Court of the United States. The Court of Appeals issued
its decision on October 23, 2020. App. 1–9. Petitioner filed a timely petition for panel
rehearing on December 14, 2020, and the Court of Appeals denied the petition on
January 11, 2021, App. 10. This petition is timely filed.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner relies upon the following constitutional and statutory provisions:
U.S. Const. amend. V (due process clause):
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury ... ; nor
shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to
1

be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law.
U.S. Const. amend. VI (right to counsel in criminal cases):
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.
STATEMENT OF THE CASE
The petitioner was charged by indictment with one count of conspiracy to
commit bank and wire fraud, four counts of bank fraud, and three counts of wire fraud
in connection with real estate mortgage transactions. After a jury trial, she was
convicted on all charges.
The presentence investigation report (PSI) prepared in advance of sentencing
reported that restitution was mandatory in petitioner’s case, that the government had
identified certain victims of the offenses of conviction, and that, according to the
government, Hernandez was responsible for restitution totaling $4,720,515.56.
Because not all of the alleged victims had provided declarations of their losses to the
probation officer, the probation officer reported that he had been unable to determine
the amount of restitution owed, and thus the PSI contained no restitution findings.
While the PSI reported that the government sought to hold Hernandez responsible for

2

restitution in the amount of $4.7 million, there was no consensus about the restitution
obligation.
During the June 26, 2019, sentencing hearing, the prosecutor advised the
district court that questions remained concerning the award of restitution.
Immediately thereafter, and with the parties’ agreement, the court scheduled a
restitution hearing for July 25, 2019. At the conclusion of the sentencing hearing, the
district court imposed an 87-month term of imprisonment on petitioner.
On July 8, 2019, the district court granted a motion by trial counsel, Juan De
Jesus Gonzalez, to withdraw from his representation of petitioner and to appoint new
counsel for petitioner’s appeal. In his motion to withdraw, trial counsel referred to his
participation in the case in the past tense, and gave no indication that he would
provide further representation once the withdrawal motion was granted. App. 17
(stating “Counsel has represented the Defendant at pre-indictment, trial,
post-conviction and sentencing.”); see also App. 18 (same). Additionally, the district
court did not expect trial counsel to continue representing petitioner, stating
unambiguously in its July 8, 2019 order, “[Trial counsel] Juan de Jesus Gonzalez is
relieved of further responsibility in this matter.” App. 19.

Trial counsel’s

representation of petitioner thus ended on July 8, 2019, when the district court granted
counsel’s motion to withdraw as trial counsel and to appoint appellate counsel. At

3

that time, counsel was appointed to represent petitioner on appeal, but no new counsel
was ever appointed to represent petitioner in the trial court.
On July 10, 2019, two days after petitioner’s trial attorney withdrew, the
government filed a motion seeking payment of restitution to six victims in a total
amount of $4,719,711.45.

At the time the motion was filed, petitioner was

unrepresented in the district court. Further, because petitioner’s former counsel had
withdrawn, former counsel was not served with the motion. Nevertheless, the
government presented the motion as an agreed motion, asserting that an assistant
United States attorney had conferred with petitioner’s former attorney, who was
misrepresented in the motion as the defendant’s “counsel of record.” App. 20
(government motion stating: “In an attempt to obviate the need for [a restitution]
hearing, the undersigned [AUSA] has conferred with Juan De Jesus Gonzalez, Esq.,
counsel of record for the defendant, and the parties are in agreement that the Court
should order restitution” in amounts listed in the motion).
The government’s motion did not reflect that petitioner had been advised of the
representations made in the motion or that she agreed to them. Moreover, the
restitution motion qualified any purported agreement, stating, “This agreement does
not affect the defendant’s ability to advance and pursue all previously preserved
objections.” App. 20 n. 1.

4

The motion also did not reflect that petitioner had agreed to waive participation
in the scheduled restitution hearing. Nor did the government assert that it had sought
to consult with the appellate attorney, who was appointed for petitioner just two days
before the filing of the restitution motion and whose appointment was limited to
appellate matters.
On the following day, July 11, 2019, the district court granted the restitution
motion and issued an amended judgment ordering petitioner to pay $4,719,711.45 in
restitution. App. 11. The amended judgment did not list the recipients or the amounts
but stated that the payees were to be provided by the United States Probation Officer.
Petitioner appealed the original and amended judgments, including on the basis
that restitution was imposed unconstitutionally, without notice and without adherence
to petitioner’s right to counsel. The Eleventh Circuit affirmed in an unpublished
opinion entered October 23, 2020, rejecting, inter alia, petitioner’s constitutional
challenge to the imposition of restitution. United States v. Hernandez, 831 Fed.Appx.
932 (11th Cir. Oct. 23, 2020).
Petitioner filed a timely petition for rehearing, arguing that the Eleventh Circuit
erred when it disregarded the facts of record showing that the petitioner was deprived
of her constitutional rights to counsel and to notice prior to imposition of restitution
and prior to the government’s filing of its motion for restitution, which was not served
on the defense attorney who represented petitioner at sentencing or on petitioner, who
5

was pro se in the district court. On January 11, 2021, the Eleventh Circuit denied the
rehearing petition. App. 10.
REASONS FOR GRANTING THE PETITION
The decision of the Eleventh Court, in upholding an order granting the
government’s ex parte motion to impose restitution of more than $4.7 million, where
petitioner lacked counsel and was neither notified of nor consented to the restitution
sought, contravened petitioner’s fundamental rights to due process and to counsel, as
guaranteed by the Fifth and Sixth Amendments, and is in conflict with at least one
other Circuit Court of Appeals.
The district court granted restitution pursuant to an ex parte government motion
that recited a purported stipulation by the defense attorney who had represented
petitioner at her sentencing. Two days before the government’s motion was filed,
however, that attorney was granted leave to withdraw from representation and the
district court removed him from the case, such that he was not counsel when the
motion was filed and was removed from the list of persons who received notice of
filings in the district court under the present-day electronic filing and serve system
operated by the federal courts. Neither the attorney nor the petitioner received notice
of the government’s motion and its allegations that the former attorney had stipulated
to the extreme financial penalty of $4.7 million. Petitioner was pro se in the district

6

court when the government moved for restitution, but the district court did not provide
to petitioner any notice of the government’s motion for restitution. Neither did
petitioner take any personal action to consent to the restitution judgment.
Despite these undisputed facts of record, showing petitioner lacked
representation during the pendency of the restitution motion and lacked actual or
imputed notice of the government’s action, the Eleventh Circuit concluded that the
petitioner’s representation by her former counsel continued even after counsel had
withdrawn from such representation and despite the fact that former counsel had not
received notice of the government’s motion seeking restitution.
The court of appeals, in allowing a former attorney—who did not even receive
notice of the government’s motion, which contained alleged stipulations of former
counsel—to be presumed to have authority to waive fundamental rights of the
defendant to defend against severe financial penalties imposed without her presence
and without her actual consent manifests an unsupportable disregard for the rights of
defendants with regard to financial penalties in general. Certiorari relief is warranted
in this case to ensure a criminal defendant’s Sixth Amendment right to counsel and
Fifth Amendment right to due process are preserved before restitution can be imposed.
Importantly, the imposition of financial penalties leaves defendants with
permanent impediments to the exercise of civil rights. See, e.g., Jones v. Governor

7

of Florida, 975 F.3d 1016, 1025, 1053 (11th Cir. 2020) (en banc) (upholding, against
constitutional challenge, Florida’s preclusion of felons who have not paid financial
penalties imposed by their criminal sentences from ability to restore their right to
vote). Even after the expiration of the restitution judgment, twenty years following
its imposition, a defendant who cannot pay such exorbitant penalties would be barred
from the right to vote in Florida.
Contrary to the Eleventh Circuit, prior consultation does not establish
continuing representation. Petitioner’s trial counsel did not join in filing the motion,
and the record does not show that he had any opportunity to review the motion after
it was filed. The motion may have incorporated misunderstandings or errors,
including clerical errors. Because petitioner lacked representation, no one had the
duty or opportunity to review the motion to ensure that it accurately reflected her
position. Because petitioner was not represented by counsel when the government
filed the restitution motion, it cannot be determined reliably that there was no dispute.
Accordingly, the court of appeals’ assumption that no dispute existed regarding
restitution is unsupported.
Before a defendant is ordered to pay restitution, she has a due process right to
notice and an opportunity to be heard. See United States v. James Daniel Good Real
Property, 510 U.S. 43, 48 (1993) (“The Due Process Clause of the Fifth Amendment

8

prohibits the United States…from depriving any person of property without ‘due
process of law,’” which includes “notice and an opportunity to be heard.”) (some
internal quotation marks omitted). It can be inferred from the record that the district
court assumed no response would be filed, because the government presented the
motion as an agreed motion. Such an inference cannot be justified, however, where
the motion was not jointly signed by petitioner or by an attorney representing her. A
motion filed by just one party may incorporate inaccurate or misunderstood
information, despite best intentions.
Moreover, trial counsel had no authority to consent to the restitution figures set
forth in the government’s motion without securing petitioner’s on-the-record consent.
This might be the case if petitioner had been in communication with competent
counsel who represented her at the pertinent time. Trial counsel had no authority,
however, to decide to waive petitioner’s procedural rights relating to a motion filed
by the government after trial counsel’s representation concluded. Petitioner was
entitled to notice of the restitution amounts sought and an opportunity to dispute those
amounts. 18 U.S.C. § 3664(e). Moreover, she was entitled to put the government to
its burden of proving the restitution amounts. Id. When she was assessed a $4.7
million restitution obligation without being afforded those opportunities, she was
denied her right to due process. See James Daniel Good Real Property, 510 U.S. at

9

48 (addressing the right to “notice and an opportunity to be heard”) (internal quotation
marks omitted).

After the district court relieved trial counsel of any further

responsibility in the case, former counsel had no authority to speak on petitioner’s
behalf.
The Eleventh Circuit, in reviewing the order of restitution—imposed against
petitioner following the filing of the government’s ex parte motion alleging that
former counsel for petitioner had agreed to the imposition of a multi-million-dollar
financial penalty—concluded that “the record refutes her argument” that she was
denied the assistance of counsel under the Sixth Amendment with respect to
imposition of restitution because the government’s restitution motion recites that her
former trial counsel had previously agreed to the motion. See App. 7. The Eleventh
Circuit concluded that this government representation overcame the circumstance that
trial counsel had withdrawn before the motion was filed and that counsel’s withdrawal
had left petitioner with no trial court representation during the pendency of the
restitution motion and when the district court entered its restitution ruling the
following day, imposing restitution in an amount of nearly $5 million.
In reaching its erroneous decision that approves a fundamental derogation of
petitioner’s constitutional rights, the Eleventh Circuit overlooked the key fact that
petitioner’s former counsel was never served with the government’s motion for

10

restitution. No service was made on the counsel who purportedly waived petitioner’s
fundamental rights, and absent service on that attorney, no claim of his waiver of
petitioner’s rights by former counsel can be found. Because notice is essential to due
process in this context and because adequate service was essential to the validity of
the government’s motion, it cannot be presumed that the government’s representation
was correct or binding on petitioner. Nothing about the ex parte motion can simply
be credited to the petitioner’s prejudice—where she was pro se and unserved with the
motion.
In light of the circumstance that petitioner’s former counsel was not afforded
notice of the government’s restitution motion—and instead, when the district court
granted his motion to withdraw, counsel was removed from the electronic service list
and the government did not otherwise indicate service of the motion on counsel—the
record offers no basis to confirm whether or not former counsel in fact agreed to the
motion or had authority to do so and no basis to dispute petitioner’s insistence that she
did not authorize counsel to waive her restitution hearing rights.
Given that trial counsel had previously withdrawn and that petitioner had no
attorney in the district court at the time the government filed the motion and the court
considered and ruled on it, the lack of notice to counsel or even constructive notice to

11

petitioner of the filing of the motion asserting a stipulation invalidates the restitution
order.
The denial of notice and the deprivation of counsel are fundamental
constitutional violations, even when they affect only the financial penalty of
restitution. See Paroline v. United States, 572 U.S. 434, 453–54 (2014) (“Aside from
the manifest procedural differences between criminal sentencing and civil tort
lawsuits, restitution serves purposes that differ from (though they overlap with) the
purposes of tort law. ... Legal fictions developed in the law of torts cannot be imported
into criminal restitution and applied to their utmost limits without due consideration
of these differences.”).
But because this is a criminal case, the fundamental violations of petitioner’s
rights in relation to restitution cannot be corrected on 28 U.S.C. § 2255 review,
because they concern a non-incarcerative component of the sentence. See Blaik v.
United States, 161 F.3d 1341, 1343 (11th Cir. 1998) (“[W]e hold that § 2255 cannot
be utilized by a federal prisoner who challenges only the restitution portion of his
sentence.”). Thus, the Eleventh Circuit’s failure to address on direct appeal the plain
record of the due process and deprivation of counsel violations creates a manifest
injustice for which no collateral remedy is available.

12

These circumstances establish that petitioner was not represented by counsel
either when the government filed the restitution motion, or when the district court
granted the motion the following day. Because the imposition of a restitution
obligation is part of a defendant’s criminal sentencing, it is a critical stage in the
criminal proceeding. Petitioner therefore was entitled to be represented by counsel.
The Fifth Circuit Court of Appeals confronted a similar situation in United
States v. Pleitez, 876 F.3d 150, 153 (5th Cir. 2017), where a defendant’s restitution
obligation was increased during a brief period when he lacked representation in the
district court. The Fifth Circuit held that the district court’s entry of an amended
judgment that increased the defendant’s restitution amount was a critical stage in the
criminal proceedings that required access to counsel, and that the district court
violated the defendant’s Sixth Amendment right to counsel by amending the judgment
and issuing a new restitution order while the defendant was not represented in the
proceeding.
The Sixth Amendment guarantees that “[i]n all criminal prosecutions, the
accused shall enjoy the right...to have the Assistance of Counsel for his defence.”
U.S. Const. amend. VI. The right to counsel extends to “all ‘critical’ stages of the
criminal proceedings.”

Montejo v. Louisiana, 556 U.S. 778, 786 (2009).

“[S]entencing is a critical stage of the criminal proceeding at which [the defendant]

13

is entitled to the effective assistance of counsel.” Gardner v. Florida, 430 U.S. 349,
358 (1977). Moreover, restitution is a penalty imposed as part of a criminal sentence.
See 18 U.S.C. § 3572(d)(1) (describing restitution as a “monetary penalty”);
Pasquantino v. United States, 544 U.S. 349, 365 (2005) (the purpose of awarding
restitution under 18 U.S.C. § 3663A is “to mete out appropriate criminal
punishment”).
Importantly, the statute that sets out procedures for issuing orders of restitution
establishes that a restitution decision must be made through the use of the adversarial
process. The Fifth Circuit noted in Pleitez, 876 F.3d at 159, that 18 U.S.C. § 3664(e)
requires the sentencing court to resolve disputes concerning restitution by a
preponderance of the evidence. The Fifth Circuit also noted that § 3664(d)(5) (which
requires a court to “set a date for the final determination of the victim’s losses”)
implies “that a defendant should be afforded the opportunity to be heard” before a
decision is made. Pleitez, 876 F.3d at 159. The adversarial nature of the restitution
proceeding bolsters the conclusion that the imposition of a restitution obligation is a
critical stage of the criminal proceedings that requires the assistance of counsel. Id.
For these reasons, petitioner was entitled to the assistance of counsel when the district
court considered and imposed a restitution obligation of $4.7 million. Moreover,
petitioner need not show that she would have received a different outcome to warrant

14

relief. Notably, this Court has made clear that there is no expediency exception to the
Sixth Amendment. See United States v. Gonzalez-Lopez, 548 U.S. 140, 145–52
(1996) (erroneous disqualification of counsel violated criminal defendant’s Sixth
Amendment right to counsel of choice and constituted structural error; no showing of
prejudice beyond erroneous deprivation of counsel was needed). Where a criminal
defendant is denied counsel at a critical stage, entitlement to relief is automatic. See
Holloway v. Arkansas, 435 U.S. 475, 489 (1978); see also United States v. Cronic,
466 U.S. 648, 659 & n.25 (1984).
Given all of these circumstances, petitioner’s case presents an excellent
opportunity to resolve a question of great importance and resolve a circuit conflict.
CONCLUSION
For the foregoing reasons, the Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
JACQUELINE E. SHAPIRO, ESQ.
Counsel for Petitioner
Miami, Florida
June 2021

15

APPENDIX

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
Nos. 19-12702; 19-12907
Non-Argument Calendar
________________________
D.C. Docket No. 1:18-cr-20698-CMA-2

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
LUZ HERNANDEZ,
a.k.a. Lucy Hernandez,
Defendant-Appellant.
________________________
Appeals from the United States District Court
for the Southern District of Florida
________________________
(October 23, 2020)
Before WILLIAM PRYOR, Chief Judge, MARTIN and BRANCH, Circuit Judges.
PER CURIAM:

App. 1

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 2 of 9

Luz Hernandez appeals her convictions and sentence for conspiring to
commit bank and wire fraud, 18 U.S.C. § 1349, two counts of bank fraud and one
count of wire fraud arising from two loans fraudulently obtained for one property
in Miami Beach, Florida, id. §§ 1343, 1344, and two counts of bank fraud and of
wire fraud arising from two loans fraudulently obtained for two properties in
Miami, id. Hernandez argues that the district court erred by instructing the jury on
disguised handwriting as consciousness of guilt, that insufficient evidence supports
her convictions for the frauds involving the two properties in Miami, and that her
order of restitution is invalid. We affirm.
Three standards of review govern this appeal. Because Hernandez
challenges the jury instruction on a ground not raised in the district court, we
review that issue for plain error. United States v. Wright, 392 F.3d 1269, 1277
(11th Cir. 2004). Because Hernandez presented evidence “after denial of [her]
motion for judgment of acquittal and then fail[ed] to renew [that] motion . . . at the
end of all of the evidence,” we will reverse her convictions for bank fraud and for
wire fraud arising from the fraudulent loans for the Miami properties only to
prevent a “manifest miscarriage of justice.” United States v. House, 684 F.3d
1173, 1196 (11th Cir. 2012) (internal quotation marks omitted). And we review de
novo the legality of Hernandez’s order of restitution. United States v. Valladares,
544 F.3d 1257, 1269 (11th Cir. 2008).
2

App. 2

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 3 of 9

The district court did not err, much less plainly err, by instructing the jury to
determine whether Hernandez disguised her handwriting and whether her conduct
was probative of consciousness of guilt. The act of a “defendant to attempt[] to
avoid providing a valid handwriting sample by intentionally distorting [her]
handwriting” can “impl[y] a consciousness of guilt,” United States v. Stembridge,
477 F.2d 874, 876 (5th Cir. 1973), like flight and resisting arrest, United States v.
Borders, 693 F.2d 1318, 1325 (11th Cir. 1982) (flight); United States v. Wright,
392 F.3d 1269, 1278–79 (11th Cir. 2004) (resisting arrest). The district court
reasonably decided to give a jury instruction on distorted handwriting because the
evidence concerning Hernandez’s conduct was “logically and legally relevant to
show consciousness of guilt.” Id. at 1278. Hernandez’s behavior was probative to
her guilt or innocence because it supported a chain of four inferences: (1) from her
behavior to the deliberate distortion of her handwriting; (2) from the distortion to
consciousness of guilt; (3) from consciousness of guilt to the crimes charged; and
(4) from consciousness of guilt of the crimes charged to actual guilt of the crimes
charged. See Wright, 392 F.3d at 1278 (applying four-step process to evidence of
resisting arrest); Borders, 693 F.3d at 1325–26 (applying process to evidence of
flight).
Testimony from Agent Detective Patrick McDonough of the Federal Bureau
of Investigation and Linda Eisenhart, a forensic document examiner, the
3

App. 3

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 4 of 9

documents used to obtain the four fraudulent loans, and Hernandez’s exemplars
provided “sturd[y] support” for the jury to find that she distorted her handwriting
to avoid conviction for the crimes charged in her indictment. See Wright, 392 F.3d
at 1278. The jury could infer that Hernandez disguised her handwriting from
McDonough’s account that she wrote slowly while gripping her pen with her three
middle fingers and from Eisenhart’s opinion that the heavy and even pen pressure,
significant tremor, angularity in rounded letters, and blunt beginning and ending
strokes on every template were consistent with handwriting distortion. The jury
could also find that Hernandez distorted her handwriting based on the dissimilar
scripts in her exemplars and in samples of her genuine handwriting. And the jury
could infer that Hernandez disguised her handwriting on documents that she knew
implicated her in the crimes charged against her. When McDonough gave
Hernandez copies of 18 documents used in the four fraudulent loan transactions
that had typewritten words in the place of handwriting and instructed her to write
the typewritten words on templates of the documents, she distorted her handwriting
on every template. The documents included a check Hernandez allegedly wrote to
the mortgage broker and a certification of income that she notarized that were used
to obtain the two loans on the Miami Beach property; an identification verification
for Michael Angel Mayenberg that Hernandez signed as notary public using the
false name Cathy Walker and submitted to obtain the loan for 12580 Southwest
4

App. 4

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 5 of 9

76th Street in Miami; and a compliance agreement for Armando Moya Castro that
Hernandez signed using the false name Roberta Prida and submitted to obtain the
loan for 5600 Southwest 74 Court in Miami.
Hernandez argues that the distortion of her handwriting could stem from
consciousness of guilt for any of the fraudulent transactions, but that fact did not
prevent the issue from being submitted to the jury. Because Hernandez’s behavior
supported the admission of evidence of distorted handwriting and was “sufficient[]
[to] establish [her] consciousness of guilt” for every fraudulent loan transaction,
see Wright, 392 F.3d at 1278–79, the responsibility rested with the jury to
determine whether Hernandez’s guilt corresponded to one or more of the
transactions, see id. at 1279. And the district court made that plain in its
instructions that the jury had to “determine [the] significance and qualitative value,
if any,” of the handwriting evidence. See Borders, 693 F.3d at 1327. The district
court instructed the jury that it “may, but . . . need not, infer that [Hernandez]
believed that she was guilty,” that it “may not, however, infer on the basis of this
alone, that [she] is, in fact, guilty of the crimes for which she is charged,” and that
the issues of “[w]hether or not evidence that [Hernandez] disguised her
handwriting shows that [she] believed that she was guilty and the significance, if
any, to be given to such evidence, are matters for . . . [it] to decide.”

5

App. 5

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 6 of 9

Substantial evidence supports Hernandez’s convictions for the frauds
involving the two properties in Miami. Those mortgage scams bore the same
hallmarks as those Hernandez, a licensed title agent, used to aid Javier Coballes to
fraudulently obtain the two loans for the property in Miami Beach. For those loans,
Hernandez concocted a sham title company whose name mimicked a real title
company, contacted the loan broker on behalf of the sham company, posed as its
title agent using the name Cathy Walker, and used that false name to create an
email address and to prepare and submit false closing documents, including a
fraudulent warranty deed that bore a notary stamp she had altered using Adobe
Photoshop. The process used to obtain loans for the properties at 76th Street and at
74 Court in Miami was virtually identical. The fraudsters, who included Coballes,
prepared and submitted false closing documents using a sham title company,
America’s Title & Escrow Corporation, and a fake title agent, Roberta Prida,
whose names were strikingly similar to Hernandez’s former employer of two
years, America’s Title Corporation, and her fellow closing agent, Roberto Prida.
The sham title company used the real company’s former business address, its HUD
settlement statement, which changed after Hernandez left, and a “funky-looking R”
that all its closing agents used as their signature. Records of Hernandez’s bank
account at Wells Fargo reflected that she made cash deposits of $34,100 in 2015
and of $57,710 in 2016, which corresponded with the laundering and disbursement
6

App. 6

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 7 of 9

of the proceeds of the four fraudulent loan transactions and she did not report as
taxable income. And when presented with the falsified documents, Hernandez
“attempt[ed] to avoid providing a valid handwriting sample by intentionally
distorting [her] handwriting,” which the jury treated as evidence of “a
consciousness of guilt.” See Stembridge, 477 F.2d at 876. Although Hernandez
presented some testimony that she was disgruntled with Coballes and that his
cohorts might have acquired some information about her former employer and
coworker by other means, none of the evidence concerning her involvement in the
mortgage scams for the two Miami properties “is so tenuous that [Hernandez’s]
conviction[s] [are] shocking.” See House, 684 F.3d at 1196 (quoting United States
v. Milkintas, 470 F.3d 1339, 1343 (11th Cir.2006)).
Hernandez argues that the order of restitution is invalid because she was
denied the assistance of counsel, but the record refutes her argument. See United
States v. Roy, 855 F.3d 1133, 1144 (11th Cir. 2017) (en banc) (discussing United
States v. Cronic, 466 U.S. 648 (1984)). During sentencing, Hernandez’s attorney,
Juan De Jesus Gonzalez, agreed to meet with the government about dividing up the
amount of restitution, and two weeks later, the government filed an “Agreed-Upon
Motion” that stated it had “conferred with . . . Gonzalez, as counsel of record for
the defendant,” and they were “in agreement” for the district court to enter an order
of restitution that awarded specific amounts of restitution to six defrauded lenders.
7

App. 7

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 8 of 9

That Gonzalez, in the interim, moved to withdraw from representing Hernandez
does not make the statements in the joint motion outside the scope of his
representation. To the contrary, Gonzalez’s motion states that Hernandez retained
him “for trial purposes only,” that he represented Hernandez throughout her trial
proceedings, including sentencing, and that he sought “to withdraw as attorney o[f]
record for purposes of appeal” and for the district court to “appoint CJA appellate
counsel.”
Hernandez argues that “[t]he district court erred when it ordered her to pay
$4.7 million in restitution,” but she invited any error in the calculation of the
amount of restitution. “[W]here a party invites the trial court to commit error, he
cannot later cry foul on appeal,” United States v. Brannan, 562 F.3d 1300, 1306
(11th Cir. 2009), and Hernandez remained silent when the government stated at
sentencing that the parties agreed as to the amount of restitution and had only to
resolve how to divide the amount. Hernandez is bound by her agreement to pay
$4,719,711.56 in restitution.
Hernandez also argues that the order of restitution in the amended judgment
is defective for two reasons, but her arguments fail. First, Hernandez argues that
she was entitled to a 14-day period to respond to the motion filed by the
government and to a hearing on the matter. But the motion stated plainly that
Gonzalez, on Hernandez’s behalf, agreed to the order of restitution, which
8

App. 8

USCA11 Case: 19-12702

Date Filed: 10/23/2020

Page: 9 of 9

eliminated the need for a response or for a hearing. See United States v. Remillong,
55 F.3d 572, 576 (11th Cir. 1995) (“We have determined that district courts are not
required to make factual findings whenever they impose a restitution order if the
appellate record provides sufficient reasons for the decision to order full
restitution.”). Second, Hernandez argues that the amended judgment requires the
probation officer to identify the payees and could “expose [her] to greater financial
obligations,” but the judgment imposes restitution in the same amount requested in
the agreed-upon order, which eliminates any confusion or uncertainty as to the
identities of the victims for whom restitution is being collected or the amount to
which each victim is entitled.
We AFFIRM Hernandez’s convictions and sentence.

9

App. 9

USCA11 Case: 19-12702

Date Filed: 01/11/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 19-12702-JJ ; 19-12907 -JJ
______________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
LUZ HERNANDEZ,
a.k.a. Lucy Hernandez,
Defendant - Appellant.
__________________________________________
Appeal from the United States District Court
for the Southern District of Florida
__________________________________________
BEFORE: WILLIAM PRYOR, Chief Judge, MARTIN and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Luz Hernandez is DENIED.

ORD-41

App. 10

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 1 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 1 of 6

United States District Court
Southern District of Florida
MIAMI DIVISION

UNITED STATES OF AMERICA

AMENDED JUDGMENT IN A CRIMINAL CASE

v.

Case Number - 1:18-20698-CR-ALTONAGA-2

LUZ HERNANDEZ
USM Number: 19145-104
Counsel for Defendant: Juan De Jesus Gonzalez
Counsel for the United States: Sean Paul Cronin
Court Reporter: Stephanie McCarn
___________________________________

Date of Original Judgment: June 26, 2019
Reason for Amendment: Modification of Restitution Order (18 U.S.C. ' 3664)
The defendant was found guilty of Counts 1-8 of the Indictment.
The defendant is adjudicated guilty of the following offenses:
TITLE/SECTION
NUMBER

NATURE OF
OFFENSE

18 U.S.C. § 1349

OFFENSE ENDED

COUNT

Conspiracy to Commit
Bank and Wire Fraud

June 2016

1

18 U.S.C. § 1344

Bank Fraud

June 18, 2015

2

18 U.S.C. § 1344

Bank Fraud

September 14, 2015

3

18 U.S.C. § 1344

Bank Fraud

April 11, 2016

4

18 U.S.C. § 1344

Bank Fraud

June 14, 2016

5

18 U.S.C. § 1343

Wire Fraud

June 18, 2015

6

18 U.S.C. § 1343

Wire Fraud

April 12, 2016

7

18 U.S.C. § 1343

Wire Fraud

June 15, 2016

8

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify the court and United States Attorney of any material changes in
economic circumstances.
Date of Imposition of Sentence:
June 26, 2019

________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE

App. 11

July 11, 2019

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 2 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: LUZ HERNANDEZ
CASE NUMBER: 1:18-20698-CR-ALTONAGA-2

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
term of 87 months. This sentence consists of concurrent terms of 87 months as to each of Counts One through Eight.
The Court makes the following recommendations to the Bureau of Prisons:
The Court recommends the defendant be designated to a facility located in or near South Florida and that
she be considered for the Prison’s 500 Hour Drug Program.

The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this judgment as follows:

Defendant delivered on ____________________ to _________________________________________________
at _________________________________________________________, with a certified copy of this judgment.

__________________________________
UNITED STATES MARSHAL

By: __________________________________
Deputy U.S. Marshal

App. 12

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 3 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: LUZ HERNANDEZ
CASE NUMBER: 1:18-20698-CR-ALTONAGA-2

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years. This term
consists of concurrent terms of five years as to each of Counts One through Eight.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of
release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful
use of a controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and
at least two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in
accordance with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as any
additional conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen days of
each month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
The defendant shall notify the probation officer at least ten (10) days prior to any change in residence or employment;
The defendant shall refrain from the excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view by the probation officer;
The defendant shall notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law enforcement
officer;
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

App. 13

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 4 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: LUZ HERNANDEZ
CASE NUMBER: 1:18-20698-CR-ALTONAGA-2

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall also comply with the following additional conditions of supervised release:
Employment Requirement - The defendant shall maintain full-time, legitimate employment and not be unemployed for a
term of more than 30 days unless excused for schooling, training or other acceptable reasons. Further, the defendant shall
provide documentation including, but not limited to pay stubs, contractual agreements, W-2 Wage and Earnings Statements,
and other documentation requested by the U.S. Probation Officer.
Financial Disclosure Requirement - The defendant shall provide complete access to financial information, including
disclosure of all business and personal finances, to the U.S. Probation Officer.
No New Debt Restriction - The defendant shall not apply for, solicit or incur any further debt, included but not limited to
loans, lines of credit or credit card charges, either as a principal or cosigner, as an individual or through any corporate entity,
without first obtaining permission from the United States Probation Officer.
Related Concern Restriction - The defendant shall not own, operate, act as a consultant, be employed in, or participate in
any manner, in any related concern during the period of supervision.
Relinquishment of Licensure - Upon request of the appropriate regulatory agency, the defendant shall relinquish his/her
license to said agency. The defendant is on notice that such relinquishment is permanent and will be considered disciplinary
action.
Travel - Defendant is not permitted to travel outside of the Southern District of Florida unless restitution is paid in full.
Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution, fines, or special
assessments, the defendant shall notify the probation officer of any material change in the defendant’s economic
circumstances that might affect the defendant’s ability to pay.

App. 14

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 5 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: LUZ HERNANDEZ
CASE NUMBER: 1:18-20698-CR-ALTONAGA-2

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the schedule of payments on the Schedule of
Payments sheet.
Total Assessment

Total Fine

Total Restitution

$800.00

0

$4,719,711.56

Restitution with Imprisonment It is further ordered that the defendant shall pay restitution in the amount of $4,719,711.56. During the period of
incarceration, payment shall be made as follows: (1) if the defendant earns wages in a Federal Prison Industries (UNICOR)
job, then the defendant must pay 50% of wages earned toward the financial obligations imposed by this Judgment in a
Criminal Case; (2) if the defendant does not work in a UNICOR job, then the defendant must pay a minimum of $50.00 per
quarter toward the financial obligations imposed in this order.
Upon release of incarceration, the defendant shall pay restitution at the rate of 15% of monthly gross earnings, until
such time as the court may alter that payment schedule in the interests of justice. The U.S. Bureau of Prisons, U.S. Probation
Office and U.S. Attorney’s Office shall monitor the payment of restitution and report to the court any material change in the
defendant’s ability to pay. These payments do not preclude the government from using other assets or income of the
defendant to satisfy the restitution obligations.
The defendant must make restitution (including community restitution) to the following payees in the amount listed
below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless
specified otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(I), all
nonfederal victims must be paid before the United States is paid.

Name of Payee

Total Amount
of Loss

TO BE PROVIDED BY
THE UNITED STATES
PROBATION OFFICER

Amount of
Restitution Ordered

Priority Order
or Percentage
of Payment

$4,719,711.56

*Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for offenses committed on
or after September 13, 1994, but before April 23, 1996.

App. 15

Case 1:18-cr-20698-CMA Document 154 Entered on FLSD Docket 07/12/2019 Page 6 of 6
USDC FLSD 245B (Rev 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: LUZ HERNANDEZ
CASE NUMBER: 1:18-20698-CR-ALTONAGA-2

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of $800.00 due immediately.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary
penalties is due during imprisonment. All criminal monetary penalties, except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
The assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK’S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 8N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney’s Office are responsible for the enforcement of this order.

Defendant shall pay restitution in the amount of $4,719,711.56 jointly and severally with her co-defendants, Javier
Coballes and Rene Navarro.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine
principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court
costs.

App. 16

Case 1:18-cr-20698-CMA Document 147 Entered on FLSD Docket 07/03/2019 Page 1 of 2

UNITED STATES DISITRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 19-CR-20698-ALTONAGA
UNITED STATES OF AMERICA,
v.
LUZ HERNANDEZ.
__________________________________________/
AMENDED UNOPPOSED MOTION TO WITHDRAW AS ATTORNEY OF RECORD
AND TO APPOINT APPELLATE COUNSEL
COMES NOW the Defendant, Luz Hernandez, by and through undersigned counsel and
moves this Honorable Court to permit counsel to withdraw from the instant case and to appoint
counsel to represent the Defendant for appeal and states:
1. Undersigned counsel filed a Notice of Appearance for trial purposes only in the
foregoing cause.
2. Counsel has represented the Defendant at pre-indictment, trial, post-conviction and
sentencing.
3. As described in the PSI, the Defendant does not have the means to employ a lawyer
to represent her on appeal. The appeal will address contested issues raised during the trial, posttrial, and sentencing.
4. The PSI and the testimony of the government’s financial expert at trial clearly
establishes that Ms. Hernandez qualifies for the services of a CJA Appellate Lawyer.
5. The Defendant Luz Hernandez has executed CJA form 23 Financial Affidavit which is
attached hereto. The Affidavit also establishes Luz Hernandez’ eligibility for the appointment of
a CJA appellate lawyer.

App. 17

Case 1:18-cr-20698-CMA Document 147 Entered on FLSD Docket 07/03/2019 Page 2 of 2

6. Counsel has conferred with A.U.S.A. Sean Cronin who does not object to granting of
the motion to withdraw as attorney of record and takes no position on the motion to have CJA
counsel appointed for appeal.
WHEREFORE undersigned counsel respectfully prays this Honorable Court enter an
Order allowing undersigned counsel to withdraw as attorney or record for purposes of appeal and
appoint CJA appellate counsel.
I HEREBY CERTIFY that a true and correct copy of the foregoing was provided to all
relevant parties via the CM/ECF filing system this 3rd day of July 2019.
Respectfully submitted,

/s/ Juan de Jesus Gonzalez
_______________________________
Juan de Jesus Gonzalez
For Luz Hernandez
JUAN DE JESUS GONZALEZ, LAWYER, PA
12905 Bird Road, Suite 204
Miami, Florida 33175
Tel: (305) 596-4500
Fax: (305) 596-4515
JuanGonzalezLaw@aol.com

App. 18

Case 1:18-cr-20698-CMA Document 148 Entered on FLSD Docket 07/08/2019 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-20698-CR-ALTONAGA
UNITED STATES OF AMERICA,
Plaintiff,
vs.
LUZ HERNANDEZ,
Defendant.
______________________________/
ORDER
THIS CAUSE came before the Court on the Amended Unopposed Motion to Withdraw
as Attorney of Record and to Appoint Appellate Counsel [ECF No. 147], filed July 3, 2019.
Being fully advised, it is
ORDERED AND ADJUDGED that the Motion is GRANTED. Jacqueline E. Shapiro
is appointed to represent Defendant, Luz Hernandez, for her appeal. Juan de Jesus Gonzalez is
relieved of further responsibility in this matter.
DONE AND ORDERED in Miami, Florida, this 8th day of July, 2019.

_________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
cc:

counsel of record

App. 19

Case 1:18-cr-20698-CMA Document 151 Entered on FLSD Docket 07/10/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-20698-ALTONAGA
Magistrate Judge Goodman
UNITED STATES OF AMERICA
vs.
LUZ HERNANDEZ,
a/k/a Lucy Hernandez,
Defendant.
/
AGREED-UPON MOTION FOR ORDER OF RESTITUTION
The United States of America, by and through the undersigned Assistant United States
Attorney, hereby moves this Court for the entry of a Restitution Order.
On June 26, 2019, this Court conducted a sentencing hearing (DE 141). The issue of
restitution was left unresolved at the conclusion of that hearing, and the Court has scheduled a
restitution hearing for July 25, 2019 at 8:30 a.m. (DE 143). In an attempt to obviate the need for
that hearing, the undersigned has conferred with Juan De Jesus Gonzalez, Esq., counsel of record
for the defendant, and the parties are in agreement1 that the Court should order restitution in the
following amounts:
<

$1,500,000 in restitution to the victim, Wells Fargo Bank, N.A., c/o Amy Rubin,
Esq., 222 Lakeview Avenue, Suite 700, West Palm Beach, FL 33401.

<

$375,000 in restitution to the victim, Bankers Mortgage Lending, c/o Ari
Sweetbaum, Esq., 4000 Ponce De Leon Blvd., Suite 800, Coral Gables, FL 33146.

<

$119,000 in restitution to the victim, Citadel Servicing Corp., c/o Chetna Vora,
Esq., General Counsel, 15707 Rockfield Blvd., Suite 320, Irvine, CA 92618.

1

This agreement does not affect the defendant’s ability to advance and pursue all previously
preserved objections.

App. 20

Case 1:18-cr-20698-CMA Document 151 Entered on FLSD Docket 07/10/2019 Page 2 of 2

<

$1,578,211.56 in restitution to the victim, Continental Casualty Company, Attn:
Specialty Claims, 500 College Road East, Suite 401, Princeton, NJ 08540.

<

$150,000 in restitution to the victim, City National Bank of Florida, Attn: Legal
Department, 25 West Flagler Street, Miami, FL 33101.

<

$997,500 in restitution to the victim, Civic Financial Services LLC, 2015
Manhattan Beach Blvd., Suite 106, Redondo Beach, CA 90278.

Wherefore, with the agreement of counsel for the defendant, the United States respectfully
requests that this Court enter the attached Restitution Order and cancel the currently-scheduled
restitution hearing.
Respectfully submitted,
ARIANA FAJARDO ORSHAN
UNITED STATES ATTORNEY
By:

/s/ Sean Paul Cronin
Sean Paul Cronin
Assistant United States Attorney
Court No.A5500940
99 N.E. 4th Street, Suite 400
Miami, FL 33132
Tel# (305) 961-9194
Fax: (305) 530-6168
sean.p.cronin@usdoj.gov

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 10, 2019, I electronically filed the foregoing document
with the Clerk of the Court using CM/ECF.
/s/ Sean Paul Cronin
Sean Paul Cronin
Assistant United States Attorney

App. 21
2

Case 1:18-cr-20698-CMA Document 151-1 Entered on FLSD Docket 07/10/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-20698-ALTONAGA
Magistrate Judge Goodman

UNITED STATES OF AMERICA
vs.
LUZ HERNANDEZ,
a/k/a Lucy Hernandez
Defendant.
/
[PROPOSED] RESTITUTION ORDER
The Court hereby orders the defendant to pay restitution in the following amounts to the
following victims:
<

$1,500,000 in restitution to the victim, Wells Fargo Bank, N.A., c/o Amy Rubin,
Esq., 222 Lakeview Avenue, Suite 700, West Palm Beach, FL 33401.

<

$375,000 in restitution to the victim, Bankers Mortgage Lending, c/o Ari
Sweetbaum, Esq., 4000 Ponce De Leon Blvd., Suite 800, Coral Gables, FL 33146.

<

$119,000 in restitution to the victim, Citadel Servicing Corp., c/o Chetna Vora,
Esq., General Counsel, 15707 Rockfield Blvd., Suite 320, Irvine, CA 92618.

<

$1,578,211.56 in restitution to the victim, Continental Casualty Company, Attn:
Specialty Claims, 500 College Road East, Suite 401, Princeton, NJ 08540.

<

$150,000 in restitution to the victim, City National Bank of Florida, Attn: Legal
Department, 25 West Flagler Street, Miami, FL 33101.

<

$997,500 in restitution to the victim, Civic Financial Services LLC, 2015
Manhattan Beach Blvd., Suite 106, Redondo Beach, CA 90278

The defendant is ordered to pay this restitution jointly and severally with her coconspirators.

App. 22

Case 1:18-cr-20698-CMA Document 151-1 Entered on FLSD Docket 07/10/2019 Page 2 of 2

Further, the restitution hearing scheduled for February 28, 2014 is CANCELLED.
DONE and ORDERED in Miami, Florida, this _____ day of July 2019.
___________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE
Copies Provided to: Parties of Record

App. 23
2

